GEM™ Account
The Bank of Missouri
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
26.99%
for Purchases
Paying Interest

We will begin charging interest on purchases on the transaction
date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees


Late Payment

Up to $38



Returned Payment

Up to $38

How We Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See the Account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in the Account Agreement.

GEM Account Agreement
Dear Accountholder:
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Genesis Credit
Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in
Lending Act;
• Includes certain disclosures required by the Federal Military
Lending Act;
• Includes an Arbitration of Disputes Provision that will substantially
affect your rights unless you reject it, and;
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records.
Please feel free to call us with any questions you may have. We look
forward to serving you.
ACCOUNT AGREEMENT
This Agreement begins on the earlier of (1) the date we approve your Application, or (2) the
first date that we extend Credit to you on your Account, as evidenced by a signed sales slip or
other evidence of indebtedness.
DEFINITIONS
To simplify this Agreement for you, the definitions listed below will apply throughout, both in
this Agreement and in your monthly statements. In addition, the words you, your, and yours
refer to the Accountholder(s) who hold(s) the Account Number and is responsible for the
Account, each of whom is individually and jointly obligated under this Agreement. The words
we, us, and our refer to The Bank of Missouri.
Account: Gem Account for which you were issued an Account Number and that is subject to
all of the terms and conditions of this Agreement.
Account Number: The Account Number we issue that you may use to make Purchases from
Retailer. Use of your Account Number to obtain Credit will be considered a use of the Account.
Accountholder: The person to whom an Account Number is issued, or who has agreed to pay
obligations arising from an Account Number issued to another person.
Agreement: Your contract with us for your Account, which contract is composed of your
Application and the Account opening disclosures. Any sales slip or other evidence of
indebtedness on your Account is incorporated into and made part of this Agreement.
Application: The form with information that you submitted to apply for your Account, including
your signature (in any form – wet signed, electronic, or digital), and any acceptance certificate
or other request that you signed or otherwise submitted to obtain this Account.
Billing Cycle: The time interval covered by a monthly statement. Each Billing Cycle is
approximately 30 days in length.
Card: Any branded Card we issue that you may use to purchase goods or services from
Retailer. Use of your Card to obtain Credit will be considered use of the Account.
Closing Date: The date of the last day of a Billing Cycle.
Covered Borrower: Certain members of the Armed Forces and their dependents who are
protected by the Military Lending Act.
Credit: The credit extension you receive under this Agreement.
Credit Limit: The maximum amount of Credit available to you on your Account. Your Account
Credit Limit will be disclosed to you on the monthly statements.
New Balance: The total outstanding Account balance on the Closing Date specified in your
monthly statement.
Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This will be
the same as the “New Balance” shown on the previous monthly statement.
Purchase: An extension of Credit to your Account for the purpose of purchasing goods or
services from Retailer.
Purchase Balance: The total outstanding balance of Purchases and interest charges, excluding
amounts included in the Regular Balance.
Retailer: Participating Zale, Zale Outlet, Gordon’s Jewelers, and Piercing Pagoda locations.
USING YOUR ACCOUNT
Purchases
You may use your Account to purchase goods and services from Retailer. You promise to pay
us and are liable for all amounts resulting from the authorized use of your Account Number or
Account, plus any applicable interest charges and other applicable charges or fees, payable
in U.S. dollars.
Required Down Payment
For each purchase you make using your Account, you must first make a down payment to
the Retailer of at least 15% of the purchase amount (including all fees and taxes). You may
pay the down payment to the Retailer using any form of payment accepted by the Retailer.
The remaining purchase balance, after the down payment, will be the amount charged to your
Account.
Your Credit Limit
You may not use your Account in any way that would cause you to go over your Credit Limit.
We may refuse to authorize or accept any transaction on your Account if (1) that transaction
would cause you to exceed your Credit Limit or (2) your Account is delinquent. We may
temporarily agree to allow you to exceed your Credit Limit. If we do so, in that case, you must
repay the excess amount according to the terms of this Agreement. Any transactions honored
in excess of your Credit Limit will not result in an increase of your Credit Limit.
MAKING PAYMENTS
Monthly Statements
We will send a statement at the end of each monthly Billing Cycle if there is a debit or credit
balance on your Account of $1 or more, a balance on which an interest charge has been
imposed or as otherwise required by applicable law. You agree to pay us, or any party to whom
we may transfer and assign your Account or the amounts owing under your Account, in U.S.
dollars according to all terms and conditions of this Agreement. Payments made by a check,
money order or other negotiable instrument must be in a form acceptable to us and drawn on
a U.S. financial institution.

For each Billing Cycle, to the extent your payments exceed your Monthly Minimum Payment,
we will apply these excess amounts in the order required by applicable law.
HOW INTEREST CHARGES ARE DETERMINED
Your Interest Rate
We use a daily periodic rate to calculate the interest on your account. The daily periodic rate
is the applicable APR multiplied by 1/365. The daily periodic rate for your account is 0.0739%
and the applicable APR is 26.99%.
When Interest Charges Begin to Accrue
Interest charges on Purchases will be imposed at the daily periodic rate from the date each
Purchase is made, and will continue to accrue on unpaid balances as long as they remain
unpaid. However, we do not assess interest charges in the following circumstances:
1. If you paid the New Balance at the beginning of your previous Billing Cycle by the
Payment Due Date during the previous Billing Cycle, or if that New Balance was $0 or a
credit balance, then:
a. if you pay the New Balance on your current statement in full by the Payment Due Date
in your current Billing Cycle, we will not assess interest charges on Purchases during
your current Billing Cycle; and
b. if you make a payment that is less than the New Balance by the Payment Due Date
in your current Billing Cycle, we will credit that payment as of the first day in your
current Billing Cycle.
2. If you had a New Balance at the beginning of your previous Billing Cycle and you did not
pay that New Balance by the Payment Due Date during that previous Billing Cycle, then
we will not assess interest charges on any Purchases during the current Billing Cycle if
you pay the New Balance at the beginning of your current Billing Cycle by the Payment
Due Date in your current Billing Cycle.
How We Calculate Interest
We calculate interest on the Purchase Balance by applying the daily periodic rate to your
average daily balance (including new Purchases), and then multiplying the resulting number
by the number of days in the Billing Cycle for each balance segment. We calculate interest as
follows:
1. For each day, we take the beginning Purchase Balance in the billing cycle, including
any unpaid interest charges, add any new Purchases and debits, and then subtract
the applicable portion of any payments and credits. This gives us the daily balance.
(Late Payment Fees, Returned Payment Fees, or other fees are not included in the daily
balance.)
2. Then, we add all the daily balances for the billing cycle together and divide the total by
the number of days in the billing cycle. This gives us the average daily balance.
Next, we multiply the daily periodic rate by the average daily balance.
Finally, we take the resulting number from #3 and multiply it by the number of days in the
Billing Cycle. This gives us the interest charge for the Billing Cycle. However, if the amount
of the interest charge is less than $2, then a minimum interest charge of $2 will be imposed
instead of the smaller computed amount.
OTHER FEES
In addition to interest charges, other fees may be applied to your Account, as set forth below.
The amounts of these fees may change from time to time during the term of your Account.
Late Payment Fee
If we do not receive your Monthly Minimum Payment due by the Closing Date of the Billing
Cycle in which the Payment Due Date occurs and the amount past due on your Account is
more than $9.99, we will apply a Late Payment Fee to your Account. The Late Payment Fee
is $27 if we did not charge a Late Payment Fee during any of the prior six billing periods.
Otherwise, the Late Payment Fee is $38. The Late Payment Fee will never exceed the amount
of your most recently required Monthly Minimum Payment.
Returned Payment Fee
If any payment on your Account is returned to us unpaid for any reason, we will apply a
Returned Payment Fee to your Account. The Returned Payment Fee is $27 if we did not charge
a Returned Payment Fee during any of the prior six billing periods. Otherwise, the Returned
Payment Fee is $38. The Returned Payment Fee will never exceed the monthly minimum
payment.
Minimum Interest Charge Fee
If the periodic interest charge amount computed in the How We Calculate Interest section are
an amount less than $2, then a Minimum Interest Charge Fee of $2 will be charged instead of
the smaller computed amount and will be treated as a fee on your billing statement and added
to your Purchase Balance at our discretion.
Documentation Fee
You may request a copy of a monthly statement previously sent to you for a Documentation Fee
of $3 per statement, which fee we will charge to your Account. Copies of sales tickets or other
items posted to your Account may be obtained for a Documentation Fee of $10 per sales ticket
or other item, which will be applied to your Account. Notwithstanding the foregoing, we will not
impose any fee in connection with a good faith assertion of a billing error or other exercise of
your Billing Rights (see below under “Your Billing Rights - Keep This Notice for Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for Covered Borrowers. The provisions of this
section apply to Covered Borrowers. If you would like more information about whether you
are a Covered Borrower, you may contact us at 1-866-502-6439.
Statement of MAPR
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to
a member of the Armed Forces and his or her dependent may not exceed an Annual Percentage
Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1)
the costs associated with credit insurance premiums; (2) fees for ancillary products sold in
connection with the credit transaction; (3) any application fee charged (other than certain
application fees for specified credit transactions or accounts); and (4) any participation fee
charged (other than certain participation fees for a credit card account).
Oral Disclosures
In order to hear important disclosures and payment information about this Agreement, you
may call 1-866-875-5929.

Monthly Minimum Payment
The Monthly Minimum Payment is 5% of your New Balance or $30, whichever is greater. If
you elect not to pay your New Balance in full, you must pay at least the Monthly Minimum
Payment by the Payment Due Date shown on your Statement, which is at least 25 days after
the Closing Date of the Billing Cycle. Your Monthly Minimum Payment also will include any past
due amount or any amount by which the New Balance exceeds your Credit Limit, whichever is
greater. If your New Balance is less than or equal to your Monthly Minimum Payment, then your
Monthly Minimum Payment will be equal to your New Balance.
Payments should be mailed with the payment coupon and in the envelope provided and
following the other instructions on the monthly statement to Genesis FS Card Services, PO Box
84049, Columbus, GA 31908. Any payment we receive in that form and at that address on or
before 5:00 P.M. Eastern Time on a normal banking day will be credited to your Account that
day. If we receive your payment in that form and at that address after 5:00 P.M. Eastern Time
on a normal banking day, or any time on a non-banking day, we will credit it to your Account the
next banking day. Please allow at least seven (7) business days for postal delivery. Payments
we receive at any other location or in any other form may not be credited as of the day we
receive them. If we accept a payment at some other place, we may delay the crediting of the
payment for up to five (5) days. This may cause you to incur Late Payment Fees and additional
interest charges, and may result in your Account being declared in default.
When you provide a check as payment, you authorize us either to use information from your
check to make a one-time electronic fund transfer from your account or to process the payment
as a check transaction. When we use information from your check to make an electronic fund
transfer, funds may be withdrawn from your account as soon as the same day we receive your
payment and you will not receive your check back from your financial institution.
At any time, you may pay part or all you owe on your Account without incurring any additional
charge for prepayment. The amount of any payment that exceeds your total New Balance will
be applied as a credit to your Account, and any remaining credit balance will be refunded as
required by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds, and
your total Credit Limit may not reflect your payments for up to 14 days.

Applicability of Arbitration of Disputes Provision
The Arbitration of Disputes Provision set forth in this Agreement does not apply to you if, as of
the date of this Agreement, you are a Covered Borrower.

Application of Payments
For each Billing Cycle, we will allocate payment amounts up to your Monthly Minimum Payment
to charges and principal due (including new transactions) in any way we determine. We will
generally apply payment amounts up to your Monthly Minimum Payment in a manner most
favorable or convenient for us.

Email
If you provide us at any time with an email contact for your Account, you agree we may use
that email address to contact you about your Account and may send you information about
products and services related to your Account. If, at any time, you would like to limit the

LOST ACCOUNT NUMBER AND UNAUTHORIZED USE
If your Account Number is lost or stolen or used without your consent, you may be liable for the
unauthorized use of your Account, but you will not be liable for unauthorized use that occurs
after you notify us orally or in writing of the loss, theft or possible unauthorized use at: Genesis
FS Card Services, P.O. Box 4477, Beaverton, OR 97076, 1-888-260-4532. In any case, your
liability will not exceed $50.
OUR RIGHTS, AND HOW THEY AFFECT YOU
Telephone Monitoring and Recording
You consent and agree that, from time to time, except as restricted by applicable law, we
may monitor or record telephone calls regarding your Account, suppress caller identification
services and use an automated dialing and announcing system or pre-recorded messages
for Account Management purposes, including calls made for account collection purposes.
If you provide us with a cellular phone number either as part of your Application, or at any
time thereafter, including, without limitation, after your Account is in a default status, you are
expressly consenting that we, our agents and successors in interest, subject to any limitations
of applicable law, may (1) contact you at that number including by text message, and (2)
use automated telephone dialing systems to initiate such contacts and/or leave recorded
messages. For Text Messages: Message and data rates may apply.
In accordance with applicable law, we or our representatives may contact you from time to
time regarding your Account, or to ask for additional information about you or your experience
with us. You agree that such contacts are not unsolicited and may include contacts at your
home or place of employment, during weekdays, weekends or holidays, on your mobile
telephone, voicemail or answering machine, or by email, fax, recorded message, text message
or personal visit.

. . . CONTINUED ON REVERSE

types of communications you receive from us by email, please contact us at Genesis FS Card
Services, P.O. Box 4477, Beaverton, OR 97076, 1-866-946-9575, or, if you receive an email
from us, you can select the “unsubscribe” link that is located in every email.
Refunds
If Retailer agrees to give a refund, you will accept a credit on your Account instead of a cash
refund.
No Waiver of Rights; Disputed Amounts
We can accept late or partial payments without losing any of our rights under this Agreement.
You agree not to send us partial payments marked “paid in full,” “without recourse,” or
similar restrictive language. If you send such a payment, we may accept it without losing
any of our rights under this Agreement. All written communications concerning disputed
amounts, including any check or other payment instrument that indicated that the payment
constitutes “payment in full” of the amount owed or that is tendered with other conditions
or limitations or as full satisfaction of a disputed amount, must be mailed or delivered to
Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
Credit Reports and Information
You authorize us to make or have made any credit, employment, or other investigative inquiries
we deem appropriate to extend you Credit or collect amounts owed to us on your Account. We
(including any assignee of the Account or amounts owing under the Account) may also obtain
information about you from credit reporting agencies or others at any time and use it for the
purposes of monitoring your credit performance, managing your Account and considering you
for new offers and programs.
Notice of Inaccurate Information
If you believe that we have information about you that is inaccurate or that we have reported or
may report to a credit reporting agency information about you that is inaccurate, please notify
us of the specific information that you believe is inaccurate by writing to us at Genesis FS Card
Services, P.O. Box 4499, Beaverton, OR 97076.
Default and Collection
Unless prohibited by applicable law, your Account is considered to be in default if (1) you fail to
make the required monthly minimum payment due on or before its payment due date, including
if your payment is returned or cannot be processed and you do not correct that failure within
31 days, (2) you try to exceed or do exceed your Credit Limit without permission and do not
bring your Account back under your Credit Limit within 31 days, (3) you become subject to
bankruptcy or insolvency proceedings, (4) you become subject to attachment or garnishment
proceedings, (5) you give us any false information or signature, (6) you die, or (7) you fail to
comply with any portion of this Agreement. Our accepting a late or partial payment does not
waive default. Default on this Account will constitute default on all accounts you hold with us.
Subject to any notice of default and right to cure or other restrictions of applicable law, if you
are in default, we may declare the entire balance due immediately. Except as provided in the
Arbitration Provision below, you agree to pay our reasonable costs and attorneys’ fees and
expenses related to the collection of your Account to the extent permitted by applicable laws.
Change of Terms
Subject to the limitations of applicable law, we may, at any time, change or remove any of
the terms and conditions of, or add new terms or conditions to, this Agreement. If required
by applicable law, we will mail written notice of such a change to you in the manner
required by such law. As of the effective date, the changed or new terms will apply to new
Purchases and to the outstanding balance of your Account, subject to the limitations of
applicable law.
Delay in Enforcement
We can delay enforcing our rights under this Agreement without losing them.
OTHER PROVISIONS
Ownership and Use of Your Account
As the Accountholder(s), you are liable for all Credit obtained under your Account. If you
authorize another person to use your Account Number, you are liable for any Credit obtained
on your Account for as long as that person holds or uses the Account Number. Misuse of your
Account by an authorized person will not be considered unauthorized use. See “Lost Account
Number and Unauthorized Use” above.
Transactions
You will retain for statement verification purposes your copy of each Purchase transaction
receipt from Retailer.
Refunds for Goods and Services
Refunds for goods and services are governed by Retailer. Any refunds for goods or services
purchased from Retailer through an extension of Credit on your Account will be issued as a
credit adjustment to your Account. When we are notified by Retailer of any refund amount,
we will subtract an amount equal to the refund amount from your Account. However, the
fixed minimum payment amount attributable to the related Purchase transaction amount will
continue to be included in your monthly minimum payment. If a refund amount results in a
credit balance on your Account, we will refund your credit balance.
Transfer and Termination of Your Account
You may not transfer your Account to any other person. We may assign your Account or
amounts you owe on your Account to any other person at any time and the assignee will take
our place under the Agreement with respect to all agreements and interests transferred. You
must pay the assignee and otherwise perform your obligations under the assigned agreements
and interests. Either you or we may terminate or suspend your Credit privileges at any time,
with or without cause and with or without advance notice, but you will remain liable for all
charges until they are paid in full. You may cancel your Account at any time by writing to us at
Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076. If you have a joint Account
and want to remove one of the names from the Account, we must receive a written request
signed by both of the Accountholders on the Account. No party is released from the obligation
for the balance owing on a joint Account, unless we agree to the arrangements in writing.
You may have to re-apply for an individual Account when you request a change from a joint
Account to an individual Account.
Additional Benefits and Services
From time to time, we may offer you benefits and services with your Account. We or another
party may provide these benefits and services. Unless expressly made a part of this Agreement,
and except as provided in the Arbitration Provision below, any such benefits and services are
not a part of this Agreement, and are subject only to the terms and conditions outlined in the
benefits or services brochure and other official documents provided to you with respect to
the benefits and services. We may adjust, add, or delete benefits or services at any time in
accordance with the brochures or documents you receive. Except as required by applicable
law, we are not liable for benefits or services that other parties provide or for their actions or
omissions.
Honoring Your Account
We are not liable for the failure or refusal of Retailer to accept your Account Number. Although
you may have Credit available, we will not be liable for the failure to authorize Credit due to
operational difficulties or mistakes. Transactions made above a certain dollar amount may
require that we authorize the transaction before the transaction is approved. In addition, we may
limit the number and amount of daily transactions approved for security reasons.
Change of Address, Employment and Telephone
We will send all written notices and statements to your address as it appears on our records.
To avoid delays and missed payments that could affect your credit standing, you agree to
promptly advise us if you change your mailing address, place of employment, or telephone
number.
Severability
In the event that any provision of this Agreement is determined to be invalid or unenforceable
for any reason, the remaining provisions will remain in effect.
Entire Agreement; Interpretation
This Agreement (including the other documents incorporated herein by reference as discussed
above) constitutes the final expression of the credit agreement between you and us relating to
your Account. The headings used in this Agreement are for the convenience of reference only
and are not intended to define or describe the scope or intent of any portion of the Agreement
Governing Law
This Agreement is controlled and governed by the laws of the State of Missouri, including
Missouri Revised Statutes (Chapter 408 Legal Tender and Interest) Section 408.145,
except to the extent that such laws are inconsistent with controlling federal laws.
Arbitration of Disputes Provision. PLEASE READ THIS ARBITRATION OF DISPUTES
PROVISION CAREFULLY. UNLESS YOU SEND US THE REJECTION NOTICE DESCRIBED BELOW,
THIS PROVISION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES BETWEEN YOU
AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER
A COURT NOR A JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO
PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS INFORMATION WILL
BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
This provision replaces any existing arbitration provision with us and will stay in force no matter
what happens to your Account, including the closing of your Account. Except as expressly

provided below, you and we must arbitrate individually, by binding arbitration under the Federal
Arbitration Act (“FAA”), any dispute or Claim between you, any joint Accountholder and/or
Authorized User, on the one hand, and us , our affiliates and agents, on the other hand, if the
dispute or Claim arises out of or is related to (a) this Agreement (including without limitation,
any dispute over the validity of this Agreement to arbitrate disputes or of this entire Agreement),
or (b) your Account, or (c) any relationship resulting from this Agreement, or (d) any insurance
or other service related to your Account, or (e) any other agreement related to your Account
(including prior agreements) or any such service, or (f) breach of this Agreement or any
other such agreement, whether based on statute, contract, tort or any other legal theory (any
“Claim”). However, we will not require you to arbitrate any individual Claims in small claims
court or your state’s equivalent court, so long as it remains an individual case in that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY
GENERAL ACTION AGAINST US IN COURT OR ARBITRATION. ALSO, YOU MAY NOT
BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT A
JOINT ACCOUNTHOLDER WITH YOU OR AN AUTHORIZED USER ON YOUR ACCOUNT
(AN “UNRELATED ACCOUNTHOLDER”), AND YOU AGREE THAT NO UNRELATED
ACCOUNTHOLDER MAY BRING ANY CLAIMS AGAINST US ON YOUR BEHALF. CLAIMS
BY YOU AND AN UNRELATED ACCOUNTHOLDER MAY NOT BE JOINED IN A SINGLE
ARBITRATION. THE ARBITRATOR WILL NOT HAVE THE POWER TO CONSIDER SUCH CLASS,
REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTIONS OR ANY SUCH CLAIMS YOU
BRING ON BEHALF OF AN UNRELATED ACCOUNTHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any dispute
regarding whether a particular controversy is subject to arbitration, or the applicability or
enforceability of the foregoing paragraph, will be decided by a court and not by an arbitrator.
If you or we elect to arbitrate a Claim, the electing party must notify the other party in writing.
The notice can be given after the beginning of a lawsuit and can be given in papers filed
in the lawsuit. Otherwise, your notice must be sent to Genesis FS Card Services, Attn:
Arbitration Demand, P.O. Box 4477, Beaverton, Oregon 97076, and our notice must be sent
to the most recent address for you in our files. The arbitration will be administered by the
American Arbitration Association (the “AAA”) under its rules in effect at the time an arbitration
is commenced that are applicable to the resolution of consumer disputes (the “Arbitration
Rules”). We will tell you how to contact the AAA and how to get a copy of the Arbitration
Rules without cost if you ask us in writing to do so. The Arbitration Rules permit you to request
deferral or reduction of the administrative fees of arbitration if paying them would cause you a
hardship. In addition, if you ask us in writing, we will consider your request to pay any or all of
your costs of arbitration.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice of
law continuously during the ten years immediately preceding the arbitration or a retired judge
of a court of general or appellate jurisdiction. The arbitration award shall award only such
relief as a court of competent jurisdiction could properly award under applicable law, including
attorneys’ fees if allowed by applicable law or agreement. All statutes of limitation, defenses,
and attorney-client and other privileges that would apply in a court proceeding will apply in the
arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be
unenforceable, the remainder of this Section shall be given full force and effect. However, if
the provision precluding class, representative or private attorney general Claims in arbitration
is deemed unenforceable, then this entire Arbitration Agreement shall be void and of no force
and effect.
You may reject this provision, in which case, only a court may be used to resolve any dispute
or Claim. Rejection will not affect any other aspect of the Account Agreement. To reject this
Provision, you must send us a notice within 60 days after you open your Account or we first
provide you with a right to reject this Provision. This notice must include your name, address
and Account number and be mailed to Genesis FS Card Services, Attn: Arbitration Provision,
P.O. Box 4477, Beaverton, Oregon 97076. This is the only way you can reject this Provision.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Think You Find A Mistake On Your Statement
If you think there is an error on your statement, please write to us at: Genesis FS Card Services,
P.O. Box 4499, Beaverton, OR 97076.
In your letter, give us the following information:
• Account information: Your name and Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three (3) business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors, and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will then send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases
If you are dissatisfied with the goods or services that you have purchased with your Account,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your Purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Account for the Purchase. Purchases made with cash
advances from an ATM or with a check that accesses your Account do not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase, contact us in
writing at: Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
Your GEM Account is issued by:
The Bank of Missouri
434 State Hwy Y
St. Robert, MO 65584

